Case: 20-1527

Document: 12-1

Filed: 08/13/2020

Pages: 1

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

Office of the Clerk
Phone: (312) 435-5850
www.ca7.uscourts.gov

PLRA C.R. 3(b) FINAL ORDER
August 13, 2020
KEVIN L. MARTIN,
Plaintiff - Appellant
No. 20-1527

v.
CHRISTOPHER NICHOLSON,
Defendant - Appellee

Originating GaseTnformation:
District Court No: 2:18-cv-00391-MJD-JMS
Southern District of Indiana, Terre Haute Division
Magistrate Judge Mark J. Dinsmore
The pro se appellant was DENIED leave to proceed on appeal in forma pauperis by the
appellate court on May 18, 2020 and was given fourteen (14)days to pay the $505.00 filing
fee. The pro se appellant has not paid the $505.00 appellate fee. Accordingly,
IT IS ORDERED that this appeal is DISMISSED for failure to pay the required docketing
fee pursuant to Circuit Rule 3(b).
IT IS FURTHER ORDERED that the appellant pay the appellate fee of $505.00 to the clerk
of the district court. The clerk of the district court shall collect the appellate fees from the
prisoner's trust fund account using the mechanism of Section 1915(b). Newlin v. Helman, 123
F.3d 429, 433 (7th Cir. 1997).

form name: c7_PLRA_3bFinalOrder(form ID: 142)

Case 2:18-cv-00391-MJD-JMS Document 186 Filed 04/01/20 Page 11 of 32 PagelD #: 969

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN MARTIN,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
CHRISTOPHER NICHOLSON,
Defendant.

No. 2:18-cv-00391-MJD-JMS

JUDGMENT
The jury having rendered a verdict in favor of Defendant in this case, the Court
HEREBY ENTERS JUDGMENT in favor of Defendant Christopher Nicholson and against
Plaintiff Kevin Martin.
SO ORDERED.

Dated: 10 MAR 2020

Mara J. Dins mare
United StatesyWagistrate Judge
Southern District of Indiana

3/

Case 2:18-cv-00391-MJD-JMS Document 186 Filed 04/01/20 Page 12 of 32 PagelD #: 970

Distribution:
KEVIN MARTIN
169789
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY - Inmate Mail/Parcels
6908 S. Old US Hwy 41
P.O.Box 1111
CARLISLE, IN 47838
Robert E. Duff
INDIANA CONSUMER LAW GROUP
robert@robertdufflaw.com
Marley Genele Hancock
INDIANA ATTORNEY GENERAL
marley.hancock@atg.in.gov
Duran Keller
KELLER LAW LLP
duran@kellerlawllp.com
Winston Lin
INDIANA ATTORNEY GENERAL
winston.lin@atg.in.gov

2

33

Case 2:18-cv-00391-JMS-MJD Document 27 Filed 10/16/18 Page 1 of 5 PagelD #: 100

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN MARTIN,

)
)
)
)

Plaintiff,

)

v.

CHRISTOPHER NICHOLSON and
JERRICHA MEEKS,
Defendants.

CASE NO. 2:18-cv-00391-JMS-MJD

)
)
)
)
)

DEFENDANTS’ EXHIBIT LIST
Defendants, Christopher Nicholson and Jerricha Meeks, by counsel, pursuant to this
Court’s Entry Setting and Directing Preparations for Evidentiary Hearing [ECF 18], respectfully
file their list of exhibits that may be used as evidence in this matter.
A. Offender Information System Conduct summary for Plaintiff Kevin Martin, DOC
#169789.
B. Bed location history for Plaintiff Kevin Martin, DOC #169789.
C. Indiana Department of Correction file for B-213 Threatening write-up issued against
Plaintiff Kevin Martin, DOC #169789 dated 7-23-2018. This includes:
1. Report of Conduct dated 7-23-2018.
2. Notice of Disciplinary Hearing (Screening Report) notification date 7-262018.
3. Report of Disciplinary Hearing dated 7-30-2018.
4. Witness statements
i. Major Busby dated 7-27-2018.
ii. Officer Gilstrap dated 7-27-2018.

23

Case 2:18-cv-00391-JMS-MJD Document 27 Filed 10/16/18 Page 2 of 5 PagelD #: 101

iii. Caseworker Meeks dated 7/23/2018.
iv. Notice of Lay Advocate/Witness: Offender Montgomery, Doc
#996375.
v. Notice of Lay Advocate/Witness: Offender Mayfield, Doc #178522.
5. Video of 7-23-2018 incident. l
6. Report of Disciplinary Hearing Video Evidence Review dated 7-30-2018.
7. Disciplinary Hearing Appeal dated 7-31-2018.
8. Letter written by Plaintiff Kevin Martin, DOC #169789, under W-V-5-18070002.

D. Indiana Department of Correction file for A-102 battery write-up for Kevin Martin,
DOC #169789 dated 7-27-2018. This includes:
1. Report of Conduct dated 7-27-2018.
2. Notice of Disciplinary Hearing (Screening Report) dated 8-2-2018.
3. Postponement of Disciplinary Hearing dated 8-6-2018.
4. Report of Disciplinary Hearing dated 8-14-2018.
5. Witness statements:
i. Major Busby
ii. Officer Lovelace
iii. Officer Foster
6. Video of 7-27-2018 incident.2
7. Disciplinary Hearing Appeal.
8. Photographic evidence from 7-27-2018 incident, (i-v)

1 This video evidence has been sent via mail to both the court and Plaintiffs counsel, Robert E. Duff.
2 This video evidence has been sent via mail to both the court and Plaintiffs counsel, Robert E. Duff.

2

1

Case 2:18-cv-00391-JMS-MJD Document 27 Filed 10/16/18 Page 3 of 5 PagelD #: 102

E. Indiana Department of Correction file for A-102 battery write-up for Kevin Martin,
DOC #169789 dated 10-05-2018. This includes:
1. Report of Conduct dated 10-05-2018.
2. Notice of Disciplinary Hearing (Screening Report) dated 10-11-2018.
3. Request for interview dated 10-12-2018 written by Lt. Nicholson.
4. Witness Statements
i. Caseworker Meeks dated 10-09-2018.
ii. Caseworker Meeks dated 10-12-2018.
iii. Major Russell dated 10-12-2018.
iv. Lt. Nicholson dated 10-12-2018.
5. Video of 10-05-2018 incident.3
6. Photographic evidence from 10-05-2018 incident, (i-vi)
7. Report of Conduct dated 10-05-2018 written by Caseworker Meeks.
F. Report of Inter-Institutional Transfer requested 9-14-2018.
G. Offender Information Sanction Detail.
H. Any documents necessary for rebuttal or impeachment.

Respectfully submitted,
CURTIS T. HILL, Jr.
Indiana Attorney General
Atty.No. 13999-20
By:

s/Marlev G. Hancock
Marley G. Hancock
Deputy Attorney General
Attorney No. 34617-32

3 This video evidence has been sent via mail to both the court and Plaintiffs counsel, Robert E. Duff.

C 2.S)

Case 2:18-cv-00391-JMS-MJD Document 27 Filed 10/16/18 Page 4 of 5 PagelD #: 103

Office of Attorney General
Indiana Government Center South, 5th Floor
302 West Washington Street
Indianapolis, IN 46204-2770
Telephone: (317)232-6287
Facsimile: (317)232-7979
E-mail: Marlev.Hancock@atg.in.gov

Case 2:18-cv-00391-JMS-MJD Document 27 Filed 10/16/18 Page 5 of 5 PagelD #: 104

CERTIFICATE OF SERVICE
I hereby certify that on October 16, 2018, the foregoing was filed using the Court’s
CM/ECF electronic filing system. Filings can be accessed via the electronic system. Copies of
the filed documents will be electronically sent to all counsel of record in the CM.ECF system.

Robert E. Duff
Indiana Consumer Law Group
The Law Officer of Robert E. Duff
P.O.Box 7251
Fishers, IN 46037
robert@robertdufflaw.com4

s/Marlev G. Hancock
Marley G. Hancock
Deputy Attorney General
Office of Attorney General
Indiana Government Center South, 5th Floor
302 West Washington Street
Indianapolis, IN 46204-2770
Telephone: (317)232-6287
Facsimile: (317)232-7979
E-mail: Marlev.Hancock@atg.in.gov

4 The video disc was mailed to the address listed for Attorney Duff. All other exhibits were sent via email to the
address listed on the docket.

Case 2:18-cv-00391-MJD-JMS Document 186 Filed 04/01/20 Page 8 of 32 PagelD #: 966

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
KEVIN MARTIN,

)
)
)
)
)
)
)
)
)

Plaintiff,
v.
C. NICHOLSON,
Defendant.

No. 2:18-cv-00391-MJD-JMS

VERDICT FORM

1. Did Mr. Martin prove by a preponderance of the evidence that (1) Lieutenant Nicholson
ordered the shakedown of Mr. Martin’s cell on August 28, 2018; (2) the lawsuit filed by
Mr. Martin was a reason that Lieutenant Nicholson ordered the shakedown; and (3) the
shakedown would be likely to deter an average person in Mr. Martin’s circumstances
from filing lawsuits against prison employees?

Check one:
Yes

X

No

If your answer to Question 1 was “Yes, ”proceed to Question 2. Ifyour answer to Question 1
was “No, ’’ you have found in favor ofLieutenant Nicholson. Do not answer any further
questions; instead, proceed to sign and date the Verdict Form.

Case 2:18-cv-00391-MJD-JMS Document 186 Filed 04/01/20 Page 9 of 32 PagelD •#: 967

2. Did Lieutenant Nicholson prove by a preponderance of the evidence that there were
reasons other than the filing of the lawsuit that would have led Lieutenant Nicholson to
order the shakedown even if Mr. Martin had not filed the lawsuit?
Check one:
Yes

No

Ifyour answer to Question 2 was "Yes, " do not answer any further questions; instead, proceed

i

to sign and date the Verdict Form. If your answer to Question 2 was "No, ’’proceed to Question
3.

3. What dollar amount of compensatory damages did Mr. Martin prove by a preponderance
of the evidence was caused by Lieutenant Nicholson? (Note: If you find that Mr. Martin
did not prove any compensatory damages, you must enter $1.00.)

$

i

Continue to Question 4.
\

: *'7
i

Case 2:18-cv-00391-MJD-JMS Document 186 Filed 04/01/20 Page 10 of 32 PagelD #: 968

4. Do you find by a preponderance of the evidence that punitive damages should be
assessed against Lieutenant Nicholson?
Check one:
Yes

No

If your answer to Question 4 was “Yes, "proceed to Question 5. Ifyour answer to Question 4
was “No, ” do not answer Question 5; instead, proceed to sign and date the Verdict Form.

5. What dollar amount of punitive damages do you award in favor of Mr. Martin and against
Lieutenant Nicholson?
$

3-jo- ^os.o
Presiding Juror

Date

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (312) 435-5850
wvAV.ca7.usoourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
May 18,2020
Before
MICHAEL S. KANNE, Circuit Judge
DAVID F. HAMILTON, Circuit Judge
KEVIN L. MARTIN,
Plaintiff - Appellant
v.

No. 20-1527

CHRISTOPHER NICHOLSON,
Defendant - Appellee
v-V

Originating Case Information:
District Court No: 2:18-cv-00391-MJD-JMS
Southern District of Indiana, Terre Haute Division
Magistrate Judge Mark J. Dinsmore
The following is before the court:
1. DECLARATION IN SUPPORT OF MOTION TO PROCEED IN FORMA PAUPERIS,
filed on April 16,2020, by the pro se appellant.
2. MOTION SEEKING PERMITTED TO APPEAL IN THE FORMA PAUPERIS, filed on
April 16,2020, by the pro se appellant.
3. NOTICE TO THE COURT, filed on April 21,2020, by the pro se appellant.
Upon consideration of appellant's motions, the district court's order pursuant to 28 U.S.C. §
1915(a)(3) certifying that the appeal was filed in bad faith, and the record on appeal,
IT IS ORDERED that the motion for leave to proceed in forma pauperis on appeal is
DENIED. See Lee v. Clinton, 209 F.3d 1025 (7th Cir. 2000). Appellant Kevin Martin has not
identified a good faith issue that the district court erred in its resolution of his motion in
limine or that he was prejudiced at trial. Martin shall pay the required docketing fee within
14 days, or this appeal will be dismissed for failure to prosecute pursuant to Circuit Rule
3(b). See Newlin v. Helman, 123 F.3d 429,434 (7th Cir. 1997).

UNITED STATES COURT OF APPEALS FOR THE SEVENTH CIRCUIT

Office of the Clerk
Phone: (3X2) 435-5850
www.ca7.uscourts.gov

Everett McKinley Dirksen United States Courthouse
Room 2722 - 219 S. Dearborn Street
Chicago, Illinois 60604

ORDER
April 3, 2020
By the Court:
KEVIN L. MARTIN,
Plaintiff - Appellant
No. 20-1527

v.
CHRISTOPHER NICHOLSON,
Defendant - Appellee

Originating Caseinformation:
District Court No: 2:18-cv-00391-MJD-JMS
Southern District of Indiana, Terre Haute Division
Magistrate Judge Mark J. Dinsmore

The following is before the court: MOTION FOR EXTENSION OF TIME, filed by the
pro se appellant on April 2, 2020.
This appeal is subject to the Prison Litigation Reform Act and therefore all proceedings
are suspended pending the assessment and payment of any necessary fees. See Newlin
v. Helman, 123 F.3d 429, 434 (7th Cir. 1997). A review of the docket indicates that the
appellant's fee status has not yet been determined. Accordingly,
IT IS ORDERED that the motion is GRANTED to the extent that the appellant shall file
the Circuit Rule 3(c) docketing statement and transcript information sheet, if one is
necessary, with this court by June 1, 2020.
Further, the appellant shall either pay the $505.00 filing fee or file a motion for leave to
proceed on appeal in forma pauperis in the district court by June 1, 2020.

JJ

Additional material
from this filing is
available in the
Clerk's Office.

